      SEC’s Controls Over Government
      Furnished Equipment and
      Contractor Acquired Property




                                           March 28, 2012
                                           Report No. 503

Audit Conducted by Castro & Company, LLC
                                               UNITED STATES

                           SECURITIES AND EXCHANGE COMMISSION
                                        WASHINGTON, D.C.     20549


    OFFICE OF

INSPECTOR GENERAL




                                      MEMORANDUM

                                               March 28, 2012


          To:            Jayne Seidman, Acting Director, Office of Administrative
                           Services (OAS)
                         Thomas Bayer, Chief Information Officer, Office of Information
                           Technolo   �(OIT)


                                            �
                                                  70��
           From:         No   e   aloney,         Inspector General, Office of Inspector
                           G n ral (OIG)


          Subject:       SEC's Controls Over Government Furnished Equipment and
                         Contractor Acquired Property, Report No. 503


          This memorandum transmits the U.S. Securities and Exchange Commission
           OIG's final report detailing the results of our audit on the SEC's controls over
          government furnished equipment and contractor acquired property. This audit
          was conducted as part of our continuous effort to assess management of the
          Commission's programs and operations and as a part of our annual audit plan.


          The final report contains nine recommendations which if fully implemented
          should strengthen the Commission's controls over government furnished
          equipment and contractor acquired property. OAS and OIT concurred with all the
          report's recommendations. Your written response to the draft report is included
          in Appendix V.


          Within the next 45 days, please provide the OIG with a written corrective action
          plan that is designed to address the recommendations identified in our final
          report. The corrective action plan should include information such as the
          responsible official/point of contact, timeframes for completing required actions,
           and milestones identifying how you will address the recommendations.




           SEC Controls Over GFE and CAP                                          March 28, 2012
           Report No. 503
                                                   Page ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our contractors.

Attachment

cc:   James R. Burns, Deputy Chief of Staff, Office of the Chairman
      Luis A. Aguilar, Commissioner
      Troy A. Paredes, Commissioner
      Elisse B. Walter, Commissioner
      Daniel M. Gallagher, Commissioner
      Jeff Heslop, Chief Operating Officer
      Vance Cathell, Deputy Director, Office of Administrative Services
      Todd Scharf, Chief Information Security Officer, Office of Information
       Technology




SEC Controls Over GFE and CAP                                       March 28, 2012
Report No. 503
                                    Page iii
SEC’s Controls Over Government Furnished
Equipment and Contractor Acquired
Property

                                Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted with Castro &
Company, LLC to conduct an audit of the SEC’s Government Furnished
Equipment (GFE) and Contractor Acquired Property (CAP), and to identify
potential areas for improvement.

The SEC’s mission is to protect investors; maintain fair, orderly, and efficient
markets; and facilitate capital formation. The SEC accomplishes much of its
mission through the use of contractors and frequently provides its contractors
with information technology equipment to use.

Federal Acquisition Regulation (FAR) Part 45 – Government Property defines
GFE or, Government Furnished Property (GFP), as property in the possession
of, or directly acquired by, the government and subsequently furnished to the
contractor for performance of a contract. It further defines CAP as property
acquired, fabricated, or otherwise provided by the contractor for performing a
contract and to which the government has title. 1 Examples of GFP include
servers and machinery the government provides to a contractor to use at the
contractor’s facility to perform the terms of its contract. For simplicity, throughout
this report GFE and CAP will be referred to as GFP.

When the SEC issues GFP to a contractor, the contractor is required to manage
and account for GFP in accordance with the FAR, and the contractor is required
to have a system to manage (i.e., control, use, preserve, protect, repair and
maintain) the government property in its possession. In doing so, the contractor
should initiate and maintain the processes, systems, procedures, records, and
methodologies necessary for effective control of government property. To
ensure contractors comply with these requirements, contractors should develop
property management systems. 2

The Commission has approximately 3,500 employees and 1,400 contract
employees who are located at its Headquarters site in Washington, D.C., the
Operations Center in Alexandria, VA, and its 11 regional offices located

1
  Federal Acquisition Regulation, Part 45 – Government Property, Clause 45.101 – Definitions,
https://www.acquisition.gov/far/html/FARTOCP45.html.
2
  Federal Acquisition Regulation, Part 52.245-1 - Government Property, Clause (b)(1), Property
management, https://www.acquisition.gov/far/html/52_245.html.
SEC Controls Over GFE and CAP                                                             March 28, 2012
Report No. 503
                                                Page iv
throughout the country. The scope of our audit primarily covered SEC’s Office of
Administrative Services (OAS), Office of Information Technology (OIT), and
Office of Financial Management (OFM).

OAS assists the SEC with managing its facilities and assets, and provides a wide
range of support services to SEC staff. OAS provides service to SEC employees
agency-wide on matters such as procurement and contracting, property
management, office lease acquisition and administration, space renovation,
supplies and office equipment management, transportation, mail distribution,
publications, printing, and desktop publishing. OAS’ Associate Executive
Director is the Property Management Officer who has oversight of the SEC’s
property management program.

OIT supports the SEC employees regarding all aspects of information
technology. OIT further has overall management responsibility for the
Commission's information technology program including application
development, infrastructure operations and engineering, user support,
information technology program management, capital planning, security, and
enterprise architecture. OIT’s Asset Management Branch (AMB) is responsible
for establishing property management policies for information technology
equipment, including serving as the inventory control point for the acquisition,
storage and issuance of information technology equipment; serving as the
utilization coordinator for the reassignment and disposal of information
technology assets; and interfacing with the Assistant Property Management
Officer regarding all information technology property issues.

OFM administers the SEC’s financial management and budget functions, and is
responsible for accounting policies, procedures, and operations, including
overseeing internal control procedures to ensure accountability of property and
reconciliation of the SEC’s official property records to the general ledger control
accounts.

Objectives. The overall objective of the audit was to determine whether
sufficient management controls over government property held by contractors
were in-place and operating effectively. The specific audit objectives were to
determine whether:

   •   SEC has reliable records to assess which contractors have
       received GFP and the dollar value of the assets provided,
   •   Contracting Officer Representatives or others responsible for
       administration of property, are properly trained and are performing
       their required duties in accordance with the SEC policy,
   •   Contractors that were provided GFP by the SEC have performed
       annual inventories of property in accordance with their contracts
       and the FAR,

SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page v
    •   SEC and contractors that were provided GFP by the SEC have
        adequate policies and procedures for the management and
        disposal of property, including the sanitization and disposal of IT
        property such as media, magnetic tapes, removable media, and
        hard drives which can contain sensitive data; and
    •   Assets held by contractors are properly accounted for and reported
        in the SEC’s financial statements.

Where appropriate, we also identified areas for improvement.

Results. We identified a number of control deficiencies concerning the SEC’s
management and accountability over GFP. Specifically, the audit found that
OAS and OIT could not identify the universe of GFP the SEC has issued to its
contractors. Additionally, OAS, in conjunction with OIT have not clearly identified
in the SEC Administrative Regulation (SECR), SECR 9-2, Property Management
Program, and SECR 9-3, Report of Survey Program, the specific property items
that it has designated as GFP, or the particular circumstances that are needed to
meet the GFP requirements in the Federal Acquisition Regulation (FAR), Part 45
– Government Property, including Section 45.101 – Definitions and Section
45.103 - General. 3 Because OAS and OIT have not identified the universe of
GFP and have not clearly defined what it considers to be GFP, there is an
increased risk of the SEC not complying with the FAR and property that is lost,
stolen, or misused may not be detected.

In addition, we found that the Configuration Management Database (CMDB)
utilized by AMB to monitor information technology equipment, including GFP is
not reliable due to the fact that controls are insufficient to ensure the information
in the database is accurate and complete. Additionally, AMB did not have proper
policies and procedures related to the accountability of information technology
equipment, including coordinating with the Contracting Officer Representatives,
or other Property Accountability Officers, as designated in the contract, to ensure
that government issued property items are properly returned to OIT when the
contractor is no longer using the property item or when the contract with the
vendor is no longer active.

Further, we found that information technology equipment provided to contractors
that AMB is required to monitor is not appropriately tracked, monitored, or
inventoried. In addition, AMB does not have up-to-date policies and procedures
to ensure the effective accountability of information technology equipment,
including GFP. AMB has not conducted a wall-to-wall inventory of the SEC’s
information technology equipment since 2009. The last inventory that was
conducted included information technology equipment at the SEC’s
Headquarters, Operations Center, and regional offices. To properly account for
information technology equipment, in February 2012, AMB began a wall-to-wall
3
 Federal Acquisition Regulation (FAR), Part 45 – Government Property, Section 45.101 – Definitions and
Section 45.103 – General.
SEC Controls Over GFE and CAP                                                           March 28, 2012
Report No. 503
                                               Page vi
inventory of the SEC’s information technology equipment at its Headquarters,
Operations Center, and regional offices locations. Once the inventory is
completed AMB then plans to conduct an inventory every two years thereafter.

Finally, we found that Contracting Officers, Contract Specialists, and Contracting
Officer Representatives are not properly trained regarding their responsibilities as
it relates to contracts containing provisions for contractor who are issued GFP.
In 10 out of the 30 contracts we sampled there was a section stating the
contractor would be provided GFP. For example, one contract contained a
section that stated, “Government Furnished Facilities and Equipment. The SEC
shall provide office space and computers for contractor personnel.” However,
OAS informed us that this equipment is generally provided to all contractors and
is not considered GFP. Therefore, the GFP section was erroneously included in
the contracts. Based on interviews we conducted, there is confusion with the
Contracting Officer Representative’s understanding of the definition of GFP, their
responsibilities for monitoring property that is provided to contractors, whether
there are procedures for assigning GFP to contractors, and collecting or
disposing of GFP when a contract employee exits a contract.

Summary of Recommendations. Based on the results of our audit, we made
the following recommendations:

   (1) The Office of Administrative Services (OAS), in conjunction with the Office
       of Information Technology (OIT), should revise SECR 9-3, Report of
       Survey Program and SECR 9-2, Property Management Program, and
       clearly define property that is designated as Government Furnished
       Property (GFP). OAS and OIT should further identify in SECR 9-3 and 9-2
       the particular circumstances that are needed to meet the GFP
       requirements in accordance with Part 45 of the Federal Acquisition
       Regulation.

   (2) The Office of Information Technology (OIT) should revise its policy to
       specify how often the office will conduct wall-to-wall inventories of the
       SEC’s information technology equipment and how frequently the
       Configuration Management Database (CMDB) should be updated. In
       performing the inventories, OIT should ensure that:

       •   All relevant fields related to asset management in the CMDB are
           accurate and properly completed, including verifying that
           individuals using the property items are properly identified within
           the database;
       •   Equipment in regional offices is included in the wall-to-wall
           inventory; and
       •   Fields in the CMDB that capture contract numbers and contract
           expiration dates using the Active Directory.

SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page vii
   (3) The Office of Information Technology (OIT) should coordinate with the
       Contracting Officer Representative or other Property Accountability
       Officer, as designated in the contract, to ensure that government issued
       property items are properly returned to the OIT and the items are promptly
       removed from the Configuration Management Database when the
       contractor is no longer using it or when the contract is no longer active.

   (4) The Office of Information Technology should develop and implement
       procedures for monitoring information technology equipment at the
       regional offices that is communicated to appropriate personnel. These
       procedures should include the regional office’s roles in monitoring
       information technology equipment issued to contractors, including their
       responsibilities when a contractor employee exits a contract or when the
       equipment is moved to a new location.

   (5) The Office of Information Technology should revise its policies and
       procedures to establish clear accountability within the Asset Management
       Branch that is associated with properly tracking and monitoring
       information technology equipment, including documenting the issuance
       and receipt of information technology equipment to specific Commission
       contractors.

   (6) When the Office of Information Technology completes the 2012, wall-to-
       wall inventory of information technology equipment, it should use this
       information to establish a baseline of the equipment in the Configuration
       Management Database.

   (7) The Office of Administrative Services, in conjunction with the Office of
       Information Technology, should develop periodic training for Contracting
       Officers, Contract Specialists, and Contracting Officer Representatives
       that clearly defines and addresses their responsibilities related to
       government furnished property consistent with Part 45 of the Federal
       Acquisition Regulation, Government Property and SECR 9-2, Property
       Management Program.

   (8) The Office of Administrative Services should ensure when the
       Commission issues Government Furnished Property to contractors, the
       Contracting Officer (and where appropriate the Contract Specialist),
       includes language in the contract that specifies:

          •   The name of the equipment,
          •   What equipment will be retained, disposed of, or returned to the
              government,
          •   When the equipment will be disposed of or returned to the
              government, and
          •   Who can accept the returned equipment.
SEC Controls Over GFE and CAP                                        March 28, 2012
Report No. 503
                                    Page viii
   (9) The Office of Information Technology should issue Government Furnished
       Property to contractors only after it obtains proof that the vendor’s contract
       has language authorizing the contractor to receive the equipment.




SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page ix
TABLE OF CONTENTS
Executive Summary ............................................................................................. iv

Table of Contents ................................................................................................. x

Background and Objectives............................................................................... 1
     Background ............................................................................................... 1
     Objectives .................................................................................................. 5

Findings and Recommendations....................................................................... 6
      Finding 1: The SEC Could Not Identify the Universe of Property Issued to
                  Contractors ............................................................................. 6
                   Recommendation 1............................................................... 7

         Finding 2: The Configuration Management Database Is Not Reliable for
                     Identifying Information Technology Equipment........................ 8
                       Recommendation 2............................................................. 10
                       Recommendation 3............................................................. 11
                       Recommendation 4............................................................. 11

         Finding 3: OIT Has Not Conducted Timely Inventory of the SEC’s
                     Information Technology Equipment and Lacks Up-to-Date
                     Information Technology Equipment Policies and
                     Procedures…. ....................................................................... 12
                       Recommendation 5............................................................. 13
                       Recommendation 6............................................................. 14

         Finding 4: Contracting Officers, Contract Specialists, and Contracting
         Officer Representatives Have Not Received Adequate Training Related to
         Government Furnished Property .............................................................. 14
                      Recommendation 7............................................................. 17
                      Recommendation 8............................................................. 18
                      Recommendation 9............................................................. 18

Appendices
     Appendix I:             Abbreviations. ..................................................................... 19
     Appendix II:            Scope and Methodology ..................................................... 20
     Appendix III:           Criteria ................................................................................ 24
     Appendix IV:            List of Recommendations ................................................... 26
     Appendix V:             Management Comments .................................................... 29
     Appendix VI:            OIG Response to Management Comments ........................ 34




SEC Controls Over GFE and CAP                                                                        March 28, 2012
Report No. 503
                                                      Page x
                   Background and Objectives

Background
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG), in accordance with its annual audit plan, contracted
with Castro & Company, LLC (Castro & Co) to conduct an audit of the SEC’s
controls over Government Furnished Equipment (GFE) and Contractor Acquired
Property (CAP). The SEC’s mission is to protect investors; maintain fair, orderly,
and efficient markets; and facilitate capital formation. The SEC accomplishes
much of its mission through the use of contractors, and frequently provides its
contractors with information technology equipment to aid in carrying out its work.

The Federal Acquisition Regulation (FAR) Part 45 – Government Property
defines GFE or, Government Furnished Property (GFP), as follows:

        “Government-furnished property" means property in the
        possession of, or directly acquired by, the Government and
        subsequently furnished to the contractor for performance of
        a contract…

GFP also includes contractor-acquired property that is a deliverable under a cost
contract that is accepted by the government for continued use under the
contract. 4

The FAR defines CAP as “property acquired, fabricated, or otherwise provided by
the contractor for performing a contract and to which the government has title.” 5
Examples of GFP include servers or machinery that the government provides to
a contractor to use at the contractor facility to perform the terms of its contract.
For simplicity, throughout this report GFE and CAP will be referred to as GFP.

The FAR requires contractors “have a system to manage (i.e., control, use,
preserve, protect, repair and maintain) government property” that is in its
possession and to initiate and maintain processes, systems, procedures,
records, and methodologies necessary for effective control of the government
property. 6

The SEC has approximately 3,500 employees and 1,400 contract employees
who work at its Headquarters site in Washington, D.C., the Operations Center in
Alexandria, VA, and its 11 regional offices located throughout the country. The

4
  FAR 45.101, Definitions
5
  FAR 45.101, Definitions.
6
  FAR 52.245-1(b)(1) - Government Property management, Clause (b)(1), Property management,
https://www.acquisition.gov/far/html/52_245.html.
SEC Controls Over GFE and CAP                                                       March 28, 2012
Report No. 503
                                             Page 1
scope of our audit primarily covered the SEC’s Office of Administrative Services
(OAS), Office of Information Technology (OIT), and Office of Financial
Management (OFM).

The SEC Administrative Regulation (SECR) 9-2, Property Management Program,
prescribes the policies and procedures governing the development,
administration, application, and oversight of the SEC’s personal property
management program to ensure that public assets under SEC custody are
effectively and efficiently managed and controlled. The SECR 9-2 applies to
personal property that is purchased or leased by the SEC. 7 Additionally, SECR
9-2 does not address GFP except by stating, “It should be noted that government
furnished property used by a contractor off-site is governed by the Federal
Acquisition Regulation.”

OAS’s Role With GFP
The Property Management Officer is OAS’ Associate Executive Director, and is
responsible for the SEC’s property management program. The Property
Management Officer’s responsibilities include establishing policies, standards,
and guidance in accordance with applicable laws, regulations, and sound
personal property management practices and standards, and assessing the
effectiveness of the Commission’s personal property activities to ensure that
sound, economical and efficient systems and internal controls are in place.

OAS conducts annual inventories of all accountable SEC property – items with
an original acquisition cost of $5,000 or more - in Momentum’s Fixed Asset
Module (FAM) accounting system. 8 Accountable property includes items such as
internal use software and leasehold improvements, with an original acquisition
cost of $5,000 or more. This property is subject to being inventoried each year
and it is entered into FAM. 9 Information technology equipment not meeting the
$5,000 accountable property threshold is not required to be inventoried in FAM.
OAS conducts annual physical inventories on all accountable property, including
information technology equipment that cost more than $5,000, and enters the
resulting data in FAM.

All Momentum modules, including FAM, are scheduled to be closed for new data
entry as of March 31, 2012, as the SEC transitions to a new Financial Shared
Services Provider, Delphi Accounting System (Oracle Financials). At that time,
existing SEC accountable property in FAM will be converted to the Oracle Assets
Module.



7
  SECR 9-2, Property Management Program (Mar. 16, 2009) cover letter and ch.1.1 – Purpose.
8
  Momentum is the SEC’s accounting system. Fixed Asset Module (FAM), is a separate module in
Momentum that is SEC’s property management system.
9
  SECR 9-2, section 1-5(C).
SEC Controls Over GFE and CAP                                                        March 28, 2012
Report No. 503
                                              Page 2
OAS tracks all the SEC contracts in the Federal Procurement Data System
(FPDS) and will continue to do so after the SEC’s transition to Oracle
Financials. 10 FPDS includes a field that Contracting Officers can use to identify
contracts that authorize the issuance of GFP during the contract’s period of
performance. If the SEC provides GFP to a contractor, the FAR requires that the
Contracting Officer insert the government property clause FAR Part 52.245.1, in
its entirety, into the contract. Contracting Officer Representatives are
responsible for ensuring that GFP, as specified in a contract, is available when
authorized and for reporting any accountable property to the contracting officer. 11

AMB’s Role With GFP
OIT’s Asset Management Branch (AMB) is responsible for establishing property
management policies for information technology equipment, including serving as
the inventory control point for the acquisition, storage and issuance of information
technology equipment (this includes computers and mobile devices); serves as
the utilization coordinator for the reassignment and disposal of information
technology assets; and interfaces with the OAS’ Assistant Property Management
Officer regarding all information technology property issues. 12

Further, AMB is responsible for issuing SEC owned information technology
property items to contract employees and tracking these items. Further, AMB is
responsible for identifying what property has been issued to contractors,
determining the location of government issued property, and ensuring the return
of the government issued property to AMB when the contractor no longer needs
it or when the contractor no longer works on the contract.

AMB maintains the Configuration Management Database (CMDB), which tracks
agency-wide information technology equipment (includes GFP) that the SEC
owns, as well as equipment that is located at the SEC’s regional offices and
equipment the regional offices issues to its contractors. AMB uses CMDB to
track and monitor all SEC information technology equipment that is not
considered accountable property. 13

OFM’s Role With GFP
OFM administers the SEC’s financial management and budget functions, and is
responsible for accounting policies, procedures, and operations, including
overseeing the Commission’s internal control procedures to ensure accountability

10
   FPDS is an automated system for collecting and reporting on federal procurement spending and serves
as a repository for federal procurement award data, https://www.fpds.gov/downloads/Manuals/FPDS-
NG_Overview.ppt
11
   SECR 10-15 (rev. 1), Acquisitions Contract Administration Positions (Aug. 12, 2009), app. A (rev. Aug. 13,
2009).
12
   SECR 9-2, section 1-5(F).
13
   Per the AMB Branch Chief, the CMDB is used to identify information technology equipment when AMB
conducts agency-wide, wall-to-wall inventories.
SEC Controls Over GFE and CAP                                                              March 28, 2012
Report No. 503
                                                 Page 3
for property and reconciliation of the official property records to the general
ledger control accounts. 14

Regional Office Questionnaire
To determine the adequacy of the SEC identifying, issuing, and tracking GFP at
its regional offices, Castro & Co developed and issued a questionnaire that was
sent to administrative officers and supervisors at the SEC’s 11 regional offices
regarding the following:

      •    Regional Office Location and Personnel – Names, phone numbers
           and e-mail addresses of the Property Accountability Officer,
           Property Custodian Officer, Receiving Official, Administrative
           Officer, and any other individual associated with GFP.
      •    Requisition and Procurement – Respond to questions associated
           with the office’s methodology for procuring equipment and
           contractors, procedures for identifying contracts with GFP items,
           and procedures for determining whether GFP items were provided
           to contractors.
      •    Receipt of Property Items – Does the office have a centralized
           location for the receipt of property items? Does the office have
           procedures associated with the receipt of property items? Are
           there procedures pertaining to the distribution of property items to
           end users?
      •    Accountability of Property Items – Respond to a series of questions
           related to tracking property items in FAM15 or some other database
           and the recent inventorying of property items at the regional offices.
      •    Other – What are the office procedures associated with collecting
           GFP from contractors after the period of performance on a given
           contract has ended?

We received responses to our questionnaire from 10 regional offices. However,
after repeated requests, the Los Angeles regional office did not respond to the
questionnaire.




14
     SECR 9-2, section 1-5(E).
15
     FAM is located in the SEC’s Momentum Accounting System.
SEC Controls Over GFE and CAP                                             March 28, 2012
Report No. 503
                                               Page 4
Objectives
The overall objective of this audit was to determine whether the SEC has in place
sufficient management controls over government property held by contractors
and whether those controls were operating effectively.

Castro & Co’s additional objectives were to determine whether:
   •   SEC has reliable records to determine which contractors have
       received GFP and the dollar value of the assets provided;
   •   Contracting Officer Representatives or others responsible for
       administration of property are properly trained and performing their
       required duties in accordance with SEC policy;
   •   Contractors that were provided GFP by the SEC have performed
       annual inventories of property in accordance with their contracts
       and the FAR;
   •   The SEC and contractors that were provided GFP by the SEC have
       adequate policies and procedures for the management and
       disposal of property, including the sanitization and disposal of
       information technology property such as media, magnetic tapes,
       removable media, and hard drives containing sensitive data; and
   •   Assets held by contractors are properly accounted for and reported
       in the SEC’s financial statements.

Where appropriate Castro & Co also identified areas for improvement.




SEC Controls Over GFE and CAP                                       March 28, 2012
Report No. 503
                                     Page 5
                Findings and Recommendations

Finding 1: The SEC Could Not Identify the
Universe of Property Issued to Contractors
         OAS and OIT could not identify the universe of property
         issued to contractors that was designated as GFP, and it has
         not clearly defined property that is considered GFP. As a
         result, there is an increased risk that the SEC’s management
         of GFP is not in compliance with the FAR, and the property
         will be lost, stolen, or misused.

From our review of the SEC property databases (e.g., FAM and AMB’s
Configuration Management Database (CMDB)), we could not identify which
property items in the databases that would create the universe of GFP.
Additionally, through discussions with OAS, OIT, OFM, Contracting Officers,
Contracting Officer Representatives, and regional office personnel, we
determined that SEC personnel lack a clear understanding of what constitutes
GFP. The FAR defines GFP as:

         “Government-furnished property” means property in the
         possession of, or directly acquired by, the Government and
         subsequently furnished to the contractor for performance of
         a contract…Government-furnished property also includes
         contractor-acquired property if the contractor-acquired
         property is a deliverable under a cost contract when
         accepted by the Government for continued use under the
         contract. 16

In its administrative regulations, the SEC does not clearly identify the specific
property items that are considered GFP, or the particular circumstances that are
needed for SEC property to meet the FAR definition of GFP.

Our review found that SECR 9-3 indicates “Government Furnished Property is
defined in the FAR, Part 45.”17 However, it does not discuss what specific SEC
property is designated as GFP. In addition, SECR 9-2 does not address GFP
except by stating, “It should be noted that government furnished property used by
a contractor off-site is governed by the Federal Acquisition Regulation.” 18


16
   FAR 45.101, Definitions.
17
   SECR 9-3, Report of Survey Program (Mar. 18, 1996), section A(3)(A). SECR 9-3 3 “provides criteria
and procedures for initiating, preparing, and approving reports of survey for SEC property.” In addition, it
establishes criteria for determining an individual's financial liability for loss of or damage to SEC property.
18
   SECR 9-2, Property Management Program, section 6.2(B).
SEC Controls Over GFE and CAP                                                                   March 28, 2012
Report No. 503
                                                    Page 6
Response to Regional Office Questionnaire. In response to the questionnaire
we issued to the SEC’s 11 regional offices, five offices identified contractors they
determined had been issued GFP. These offices indicated the GFP items were
desktop computers and monitors that AMB provided to the contractor’s
employees. 19 Three regional offices verbally stated they did not have a clear
understanding of what SEC information technology equipment is defined as GFP.

Conclusion. OAS and OIT could not identify the universe of GFP that was
issued to SEC contractors. Further, the SEC has not clearly defined in its
internal policies and the SECR, exactly what property is considered to be GFP.

Because the SEC has not clearly identified the universe of GFP, there is a risk
that the SEC may not be in compliance with the FAR Part 45, and property that is
lost, stolen, or misused may not be detected. We found that some contracts we
reviewed included sections related to GFP items that were provided in the
contract, but OAS later determined that the items did not meet the definition of
GFP in Part 45. For example, one contract had a section stating, “Government
Furnished Facilities and Equipment. The SEC shall provide office space and
computers for contractor personnel,” and the SEC confirmed they do not
consider these items to be GFP.

     Recommendation 1:

     The Office of Administrative Services (OAS), in conjunction with the
     Office of Information Technology (OIT), should revise SECR 9-3,
     Report of Survey Program and SECR 9-2, Property Management
     Program, and clearly define property that is designated as Government
     Furnished Property (GFP). OAS and OIT should further identify in
     SECR 9-3 and 9-2 the particular circumstances that are needed to
     meet the GFP requirements in accordance with Part 45 of the Federal
     Acquisition Regulation.

     Management Comments. OAS and OIT concurred with this
     recommendation. See Appendix V for management’s full comments.

     OIG Analysis. We are pleased that OAS and OIT concurred with this
     recommendation.




19
  Computers issued to contract personnel are not the type of information technology equipment OAS or OIT
consider to be GFP.
SEC Controls Over GFE and CAP                                                          March 28, 2012
Report No. 503
                                               Page 7
Finding 2: The Configuration Management
Database Is Not Reliable for Identifying
Information Technology Equipment
       The CMDB, which AMB uses to track and monitor
       information technology equipment, is not reliable because its
       controls over the monitoring and tracking of information
       technology equipment are insufficient and do not ensure that
       the information in the database is accurate and complete.

To determine the appropriateness and completeness of the CMDB for tracking
and identifying information technology equipment, we obtained an FPDS report
from OAS containing all the contracts that were identified as having been issued
GFP. OAS tracks all SEC contracts in the FPDS and the FPDS has a field that
Contracting Officers can use to identify contracts that are authorized to be issued
GFP during the contract’s period of performance.

We then obtained a CMDB report from AMB that identified all information
technology property items that were provided to contractors. To analyze these
reports, Castro & Co:

       (1) Reviewed the reports for any anomalies;
       (2) Reconciled the reports by comparing them to determine if
           contractors on one of the databases were missing from the
           other;
       (3) Selected a sample number of contractors from the CMDB listing
           that were not included on the FPDS report and obtained a copy
           of the contracts; and
       (4) Obtained a Momentum report from OFM of all transactions
           recorded against the “equipment” Budget Object Class 31XX, in
           2010 and 2011.

Our review of the FPDS report and the report from the CMDB identified the
following discrepancies:

   •   Certain data fields in the CMDB were inaccurate or incomplete. For
       example, 31 items in the population of 1,658 information technology
       assets in the CMDB did not have the required room number for the
       location of the asset; and three items did not have the required floor
       number for the asset.
   •   An Asset Tag number was listed twice in the CMDB.
   •   A significant number of Blackberries being held for stock were
       wrongly assigned to a contract employee in the CMDB.
   •   The FPDS report identified 42 contractors with GFP and the CMDB
       showed 110 contractors had GFP. We determined that 74
SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page 8
         contractors on the CMDB report were not included in the FPDS
         report.
     •   We were unable to determine if 11 of the 110 contractors in the
         CMDB report had active contracts with SEC because contract
         numbers are not included in the CMDB and therefore could not be
         tracked.

Based on our analysis, we determined that the information in the CMDB was
unreliable because the database contained erroneous information.

Past Problems Associated With Updating the CMDB. AMB has not
conducted a wall-to-wall inventory of SEC information technology equipment
since 2009. The AMB Branch Chief informed Castro & Co that during the 2009
inventory, server problems interfered with loading inventory data into the CMDB
correctly, and the contractor responsible for conducting the inventory spent
approximately a year trying to correct the issues, which caused delays in
performing the next scheduled equipment inventory. He further relayed that as a
result, AMB did not start to plan the next wall-to-wall inventory until the third
quarter of fiscal year 2010. As a result, he acknowledged that the data in the
CMDB is not current.

Further AMB’s Branch Chief told us that OIT’s “Tier II 20” technicians neglected to
update the CMDB when they issued new equipment to contractors.

Assessment of the CMDB’s Controls. In Castro & Co’s questionnaire, five
regional offices stated they had issued information technology equipment to
contractors; however, only one of the offices maintained a listing of the
equipment. We attempted to trace all items identified on this particular regional
office’s list, to the CMDB to determine if AMB properly tracked the items and
found that some if the information technology equipment was not in the CMDB.

AMB did not have proper policies and procedures related to the accountability for
information technology equipment, including GFP in the CMDB. AMB also did
not have policies and procedures for coordinating with the Contracting Officer
Representatives or other Property Accountability Officers, as designated in the
contract, to ensure that GFP items are properly returned to OIT when for
example, the contractor no longer needs the item, the contractor no longer works
for the vendor or in the area requiring equipment, or when the period of
performance on the contract ends.

Four staff in the regional offices informed Castro & Co that they did not have a
clear understanding of the procedures they should follow when a contract
employee who was issued GFP either no longer works on the contract or when
the period of performance on the contract ends. Therefore, there is a risk that
20
  AMB’s “Tier II” technicians are contractors who are managed by OIT’s Technical Assistance Center
Branch.
SEC Controls Over GFE and CAP                                                          March 28, 2012
Report No. 503
                                               Page 9
property items AMB provided to contractors may have been transferred to
another contractor or SEC employee without being properly tracked.

Conclusion. The CMDB was unreliable due to missing data fields, the data
being unreliable, and not utilized fully by staff, and we could not trace the
assignment of certain information technology equipment to specific contracts or
individuals. Therefore, if equipment was lost, stolen, or was not returned to the
agency, the SEC would have a difficult time identifying the contractor and or
individual who was responsible for the equipment. AMB is not complying with
SECR 9-2, Section 1-1, Purpose, which states, “This Property Management
Regulation prescribes procedures to ensure that public assets under the SEC
custody are effectively and efficiently managed and controlled. Implementation
of logistical and financial accountability and controls will enable the SEC
resource managers to maximize the taxpayers’ investment in government
property by preventing unnecessary acquisitions, promoting effective use of
existing assets, and attaining optimum return by systematic disposal of unneeded
equipment.”21

       Recommendation 2:

       The Office of Information Technology (OIT) should revise its policy to specify
       how often the office will conduct wall-to-wall inventories of the Securities and
       Exchange Commission’s information technology equipment and how
       frequently the Configuration Management Database (CMDB) should be
       updated. In performing the inventories, OIT should ensure that:

           •   All relevant fields related to asset management in the CMDB are
               accurate and properly completed, including verifying that
               individuals using the property items are properly identified within
               the database;
           •   Equipment in regional offices is included in the wall-to-wall
               inventory; and
           •   Fields in the CMDB that capture contract numbers and contract
               expiration dates using the Active Directory.

       Management Comments. OIT concurred with this recommendation. See
       Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




21
     SEC Administrative Regulation, SECR 9-2, Property Management Program, Section 1.1.
SEC Controls Over GFE and CAP                                                             March 28, 2012
Report No. 503
                                               Page 10
   Recommendation 3:

   The Office of Information Technology (OIT) should coordinate with the
   Contracting Officer Representative or other Property Accountability Officer, as
   designated in the contract, to ensure that government issued property items
   are properly returned to the OIT and the items are promptly removed from the
   Configuration Management Database when the contractor is no longer using
   it or when the contract is no longer active.

   Management Comments. OIT concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation.

   Recommendation 4:

   The Office of Information Technology (OIT) should develop and implement
   procedures for monitoring information technology equipment at the regional
   offices that is communicated to appropriate personnel. These procedures
   should include the regional office’s roles in monitoring information technology
   equipment issued to contractors, including their responsibilities when a
   contractor employee exits a contract or when the equipment is moved to a
   new location.

   Management Comments. OIT concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation.




SEC Controls Over GFE and CAP                                        March 28, 2012
Report No. 503
                                    Page 11
Finding 3: OIT Has Not Conducted Timely
Inventory of the SEC’s Information Technology
Equipment and Lacks Up-to-Date Information
Technology Equipment Policies and Procedures
       AMB has not appropriately inventoried the SEC information
       technology equipment, including information technology
       equipment provided to contractors. In addition, AMB does
       not have up-to-date policies and procedures to ensure that
       information technology equipment, including GFP, is
       accounted for effectively. As a result, the risk is increased
       that such equipment could be lost, stolen, misused and that
       the loss, theft, or misuse could go undetected.

OIT Has Not Conducted Timely Inventory of the SEC’s
Information Technology Equipment
As previously mentioned, AMB has not conducted a wall-to-wall inventory of the
SEC’s information technology equipment since 2009. The AMB Branch Chief
informed Castro & Co that during the 2009 inventory, server problems interfered
with loading inventory data into the CMDB correctly, and the contractor
responsible for conducting the inventory spent approximately a year trying to
correct the issues, which caused delays in performing the next scheduled
equipment inventory. In February 2012, AMB initiated an agency-wide, wall-to-
wall inventory of the SEC’s information technology equipment. AMB says the
office will now conduct an inventory every two years, hereafter. AMB’s
inventories will obtain the following information for each property item
inventoried, including GFP, if applicable:

   •   Name of Employee/Contractor to whom the equipment is assigned
   •   Equipment Serial Number
   •   Office Number and Floor where equipment is located
   •   Office Location (Headquarters, regional office, etc.)
   •   Asset Sub Class (e.g., monitors, desktops, laptops)

The Government Accountability Office (GAO) identified a number of best
practices in performing an inventory of property, including the following key
factors for achieving consistent and accurate counts of physical inventories:

   •   Establish Accountability
   •   Establish Written Policies
   •   Select an Approach
   •   Determine Frequency of Counts

SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                     Page 12
     •   Maintain Segregation of Duties
     •   Enlist Knowledgeable Staff
     •   Provide Adequate Supervision
     •   Perform Blind Counts
     •   Ensure Completeness of the Count
     •   Execute Physical Count
     •   Perform Research
     •   Evaluate Count Results 22

The GAO Executive Guide presents processes and controls that private sector
companies use and recognize as excelling in their ability to manage inventory
and achieve consistent and accurate counts of physical inventories.

Since the SEC has not performed timely inventories of information technology
equipment, they are not able to accurately identify a complete universe of
information technology equipment.

AMB Property Management Policies. AMB has not developed up-to-date
property management policies for the SEC’s information technology equipment.
The AMB Branch Chief, who joined the SEC during the summer of 2011, said
that his major focus had been on updating outdated procedures related to
monitoring and developing a plan to conduct a wall-to-wall inventory of the SEC’s
information technology equipment. Because AMB did not have up-to-date
policies and procedures, there were not adequate controls in place related to the
accountability of information technology equipment.

Conclusion. Because it did not conduct a timely wall-to-wall inventory of the
SEC information technology equipment and has not established or implemented
up-to-date policies and procedures to ensure information technology equipment
can be effectively accounted for, AMB is not complying with SECR 9-2, or
fulfilling the purpose of the regulation, which is to ensure that “public assets
under the SEC custody are effectively and efficiently managed and controlled.” 23

     Recommendation 5:

     The Office of Information Technology (OIT) should revise its policies and
     procedures to establish clear accountability within the Asset Management
     Branch that is associated with properly tracking and monitoring information
     technology equipment, including documenting the issuance and receipt of
     information technology equipment to specific Commission contractors.



22
   Government Accountability Office, Executive Guide - Best Practices in Achieving Consistent, Accurate
Physical Counts of Inventory and Related Property, GAO-02-447G (Mar. 1, 2002), at 12.
http://www.gao.gov/new.items/d02447g.pdf.
23
   SECR 9-2, section 1.1.
SEC Controls Over GFE and CAP                                                            March 28, 2012
Report No. 503
                                               Page 13
   Management Comments. OIT concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation.

   Recommendation 6:

   When the Office of Information Technology completes the 2012, wall-to-wall
   inventory of information technology equipment, it should use this information
   to establish a baseline of the equipment in the Configuration Management
   Database.

   Management Comments. OIT concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation.


Finding 4: Contracting Officers, Contract
Specialists, and Contracting Officer
Representatives Have Not Received Adequate
Training Related to Government Furnished
Property
   Contracting Officers, Contract Specialists, and Contracting
   Officer Representatives are not properly trained regarding their
   GFP responsibilities. As a result, sections in awarded contracts
   included language stating the contractor was issued GFP, such
   as a SEC computer desktop or a monitor.               In addition,
   Contracting Officers and Contracting Officer Representatives do
   not fully know their responsibilities related to GFP.

Contracting Officer and Contract Specialist Responsibilities
Related to GFP
As discussed in Finding 1, Castro & Co obtained a FPDS report from OAS that
identified contracts that had GFP. We then got a CMDB report from AMB that
identified contractors who had been issued GFP and compared the two reports.
The FPDS report identified 42 contractors that had GFP and the CMDB report
identified 110 contractors that had GFP. We initially determined that 86
contractors on the CMDB report that were not included on the FPDS report.

SEC Controls Over GFE and CAP                                           March 28, 2012
Report No. 503
                                    Page 14
However, we determined six contractors were repeated twice and three contracts
were on the report three times. After removing the duplicate entries, we
determined that 74 contractors remained on the CMDB report, were not on the
FPDS report.

We selected a sample of 30 contractors from the list of 74 contractors on the
CMDB report and reviewed the associated contracts to determine if the contracts
included

       •   A section stating the contractor would be issued GFP; and
       •   FAR 52.245-1 (as required by FAR 45.107). 24

Ten out of the 30 contracts in our sample included a section in the contract
indicating the contractor would be provided GFP. For example, one contract
contained a contained the following language:

           “Government Furnished Facilities and Equipment. The SEC
           shall provide office space and computers for contractor
           personnel.”

Both OAS and OIT informed us that computers issued to contract personnel are
not the type of information technology equipment it considers to be GFP. These
are standard equipment that is issued to most contractors (depending on need)
and it does not leave the SEC’s work sites. Therefore, we determined that the
GFP section should not have been included in the contracts. OAS and OIT staff
stated the GFP section was included in the contracts by Contracting Officers and
Contract Specialists who did not have a clear understanding of what SEC defines
as GFP. Additionally, Contracting Officers and Contract Specialists tend to use
old Statement of Works to develop templates to develop new contract
requirements that have the GFP sections already included in it.

Contracting Officer Representatives Responsibilities Related to
GFP
We judgmentally selected 15 contractors from the list of property items in the
CMDB and requested names for the Contracting Officer Representatives that
were associated with the contracts, from the Office of Acquisitions. We
interviewed all but one Contracting Officer Representatives, who was from the
Office of Human Resources, and did not respond to our e-mail and telephone
requests for an interview.

Based on the interviews we conducted, Castro & Co found that Contracting
Officer Representatives are confused about the definition of GFP and their
responsibilities for monitoring GFP, including whether procedures exist for

24
     Federal Acquisition Regulation Part 45 – Government Property, Section 45.107, Contract Clauses.
SEC Controls Over GFE and CAP                                                             March 28, 2012
Report No. 503
                                                 Page 15
assigning GFP to contractors and collecting GFP when a contract employee exits
a contract. The majority of Contracting Officer Representatives believe they are
not responsible for tracking property that is issued to contractors because they
believe it is AMB’s responsibility. However, SECR 10-15 states that Contracting
Officer Representatives’ responsibilities and duties include ensuring GFP, as
specified in the contract, is available when required, and for reporting any
accountable property to the appropriate personnel. 25

Contracting Officer Representatives Training. The Contracting Officer
Representatives indicated they are required to complete 40 hours of training
every two years to maintain their certification. OAS regularly provides the
Contracting Officer Representatives with suggested courses in e-mails and they
also remind them of their recertification requirements.

There are three levels of Contracting Officer Representatives designation, each
with different training and experience requirements:

     1. Level I – Level I Contracting Officer Representatives are required
        to complete eight hours of training and are not required to have
        previous experience. This designation is generally appropriate for
        low-risk contract vehicles, such as supply and order contracts.

     2. Level II – Level II Contracting Officer Representatives are required
        to complete 40 hours of training and must have two years of
        previous Contracting Officer Representatives experience. This
        designation is generally appropriate for contract vehicles of
        moderate to high complexity, including both supply and service
        contracts. Level II Contracting Officer Representatives may also be
        called upon to perform general project management activities.

     3. Level III – Level III Contracting Officer Representatives, are
        required to complete 60 hours of training every two years, and must
        have experience on contracts of moderate to high complexity that
        require significant acquisition investment. Level III Contracting
        Officer Representatives are the most experienced Contracting
        Officer Representatives should be assigned the most complex and
        mission-critical contracts. These Contracting Officer
        Representatives are often called upon to perform significant
        program management activities. 26

We conducted interviews with the SEC University personnel to identify available
training that is related to property management. The SEC University sends out
25
   SECR 10-5, app. A.
26
   Office of Management and Budget, Memorandum for Chief Acquisition Officers, Senior Procurement
Executives: Revisions to the Federal Acquisition Certification for Contracting Officer’s Representatives
(FAC-COR) (Sept. 6, 2011), at 2, http://www.whitehouse.gov/sites/default/files/omb/procurement/revisions-
to-the-federal-acquisition-certification-for-contracting-officers-representatives.pdf.
SEC Controls Over GFE and CAP                                                            March 28, 2012
Report No. 503
                                               Page 16
agency-wide emails about Contracting Officer Representatives training and is the
primary SEC office responsible for developing and administering courses that
Contracting Officer Representatives can take to obtain their Level I to Level III
recertification. The SEC University offers various courses Contracting Officer
Representatives can take to maintain their certifications. Our review of the
training courses found that the current courses do not address the role of
Contracting Officer Representatives who oversee contracts with GFP. Currently,
the SEC University offers a “Putting it All Together” course for Contracting Officer
Representatives that covers procurement procedures and includes a panel
discussion with active SEC Contracting Officers and Contracting Officer
Representatives. The SEC University personnel stated that a new “Putting it All
Together” or “Webinar” course could be developed that addresses GFP
requirements. Such a course could also include a panel discussion with property
experts, including representatives from AMB.

Because Contracting Officers, Contract Specialists and Contracting Officer
Representatives do not have a clear understanding of what is or is not GFP, SEC
contracts may erroneously include or exclude GFP clauses. Further, because
Contracting Officers, Contract Specialists, and Contracting Officer
Representatives do not know what their responsibilities related to GFP. Finally,
GFP currently is not being properly accounted for, tracked, and monitored.

   Recommendation 7:

   The Office of Administrative Services, in conjunction with the Office of
   Information Technology, should develop periodic training for Contracting
   Officers, Contract Specialists, and Contracting Officer Representatives that
   clearly defines and addresses their responsibilities related to government
   furnished property consistent with Part 45 of the Federal Acquisition
   Regulation, Government Property and SECR 9-2, Property Management
   Program.

   Management Comments. OAS and OIT concurred with this
   recommendation. See Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OAS and OIT concurred with this
   recommendation.




SEC Controls Over GFE and CAP                                         March 28, 2012
Report No. 503
                                     Page 17
   Recommendation 8:

   The Office of Administrative Services should ensure when the Securities and
   Exchange Commission issues Government Furnished Property to
   contractors, the Contracting Officer (and where appropriate the Contract
   Specialist), includes language in the contract that specifies:

      •   The name of the equipment,
      •   What equipment will be retained, disposed of, or returned to the
          government,
      •   When the equipment will be disposed of or returned to the
          government, and
      •   Who can accept the returned equipment.

   Management Comments. OAS concurred with this recommendation.
   See Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OAS concurred with this
   recommendation.

   Recommendation 9:

   The Office of Information Technology should issue Government Furnished
   Property to contractors only after it obtains proof that the vendor’s contract
   has language authorizing the contractor to receive the equipment.

   Management Comments. OIT concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation.




SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                     Page 18
                                                                  Appendix I


                                Abbreviations

AMB                               Asset Management Branch
CAP                               Contractor Acquired Property
Castro & Co                       Castro & Company, LLC
CMDB                              Configuration Management Database
COSO                              Committee of Sponsoring Organizations
                                   of the Treadway Commission
FAM                               Fixed Asset Module
FAR                               Federal Acquisition Regulation
FPDS                              Federal Procurement Data System
GAO                               Government Accountability Office
GFE                               Government Furnished Equipment
GFP                               Government Furnished Property
OAS                               Office of Administrative Services
OFM                               Office of Financial Management
OIG                               Office of Inspector General
OIT                               Office of Information Technology
OMB                               Office of Management and Budget
SEC or Commission                 U.S. Securities and Exchange Commission
SECR                              SEC Administrative Regulation




SEC Controls Over GFE and CAP                                    March 28, 2012
Report No. 503
                                    Page 19
                                                                       Appendix II


                     Scope and Methodology

As part of the OIG’s annual audit plan, Castro & Co conducted an audit of
management controls over the SEC’s GFP.

Castro & Co conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The OIG contracted with Castro & Co to conduct a performance audit to
identify potential areas for improvement with regard to the Commission’s GFP.
The overall objective of the audit was to determine whether sufficient
management controls over government property held by contractors were in
place and operating effectively. The scope of our audit covered GFP acquired
from fiscal year 2007 through fiscal year 2011, and included examining:

       •   The Commission’s processes for managing and accounting for
           GFP, and
       •   The policies and procedures in place to ensure the proper
           management of and accountability for GFP.

Castro & Co conducted its fieldwork from October 2011 through January 2012.
The scope of our audit further included the SEC’s Headquarters site in
Washington, D.C., the Operations Center in Alexandria, VA, and its 11 regional
offices that are located throughout the country.

Methodology. To accomplish the audit’s objectives, Castro & Co’s fieldwork
included the following:

   •   To gain an understanding of the GFP’s we reviewed SEC’s
       regulations and policies and procedures pertaining to property
       management and management of and accountability for GFP and
       information technology equipment.

   •   We reviewed relevant federal laws, regulations, and guidance;

   •   Reviewed OIG issued reports related to GFP or accountability for
       information technology equipment to determine the impact of their
       findings on our audit procedures and to determine the status of
       applicable recommendations.

SEC Controls Over GFE and CAP                                       March 28, 2012
Report No. 503
                                    Page 20
                                                                                       Appendix II


     •   Reviewed reports issued by other federal agencies related to GFP
         and accountability for information technology equipment, to
         determine whether any issues in these reports were applicable to
         the scope of our audit.

     •   Conducted interviews with select personnel who had
         responsibilities related to SEC property and contracts management,
         including: personnel from OAS, OIT, OFM; contracting officers;
         Contracting Officer Representatives; contractors; and regional
         office personnel. We also conducted interviews with the SEC
         University staff to determine specific training requirements related
         to property management that are available to SEC employees.

     •   Developed, administered, and analyzed the results of a
         questionnaire that was directed to SEC’s regional offices to
         determine the adequacy of their identification, issuance, and
         tracking processes for GFP.

     •   Obtained, reviewed and analyzed contracts to determine whether
         they included GFP language.

     •   Identified areas in which improvements could be made.

Internal Controls. Internal Control – Integrated Framework, published by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO),
provides a framework for organizations to design, implement, and evaluate
controls that facilitate compliance with federal laws, regulations, and program
compliance requirements. 27 For this audit, we based our assessment of internal
controls related to the accountability and management of GFP that were
significant to the audit objectives on the COSO framework, including control
environment, control activities, information and communication, and monitoring.

We reviewed the management control activities as they pertained to the audit’s
objectives and assessed the design effectiveness of key controls over GFP.
Among the internal controls we assessed to determine whether they were
properly designed and implemented, were OAS, OIT, and OFM’s controls and
policies and procedures related to the accountability and management of GFP.
To facilitate our understanding of applicable GFP process controls, we reviewed
information in organization charts, current policies and procedures, fiscal year
2010 GAO Financial Statement Audit Property and Equipment Cycle
Memorandum, and systems used to track and monitor property and equipment,
including GFP. We met with appropriate staff from OAS, OIT, and OFM to gain
an understanding of the controls surrounding property and equipment items they
manage, including GFP, if applicable. Additionally, to determine the adequacy of
27
  Committee of Sponsoring Organizations of the Treadway Commission, Internal Control-Integrated
Framework (1992), http://www.coso.org/guidance.htm.
SEC Controls Over GFE and CAP                                                         March 28, 2012
Report No. 503
                                              Page 21
                                                                       Appendix II


the controls over the identification, issuance and tracking process of GFP at the
SEC regional offices, we developed a questionnaire that was submitted to the
SEC’s 11 regional offices.

Judgmental Sampling. Castro & Co employed a judgmental sampling
methodology for performing this audit. Judgmental sample sizes were
determined after giving consideration to the frequency of the control, significance
of the control, inherent risk, and professional judgment.

We judgmentally selected 30 contracts from a list of 74 active contracts OAS
provided, where the Contracting Officer initially identified the contractor was
provided GFP. We reviewed these contracts to determine whether they properly
identified GFP.

Further, we judgmentally selected 80 contracts from a Momentum report OFM
provided that contained 110 contracts that had transactions that were charged to
the equipment Budget Object Class 31XX, for the period of October 1, 2009
through September 30, 2011. The supporting contracts were reviewed to
determine whether they properly identified GFP.

Further, we judgmentally selected 15 Contracting Officer Representatives from
the SEC’s approximate 59 Contracting Officer Representatives to interview.
These Contracting Officer Representatives were selected from a list we were
provided that showed the Contracting Officer Representatives was assigned
information technology equipment. We interviewed the Contracting Officer
Representatives because they responsible for the administration of property and
to determine whether they were properly trained and were performing their
required duties in accordance with the SEC policy.

Because we did not use statistical sampling techniques, we did not try to project
the results of the items reviewed in our samples to the entire population.

Prior Audit Coverage. SEC OIG Controls Over Laptops, Inspection Report No.
441, issued March 31, 2008, found weaknesses in the SEC’s inventory and
control of laptop computers. While OAS and OIT implemented most of the
recommendations identified in the report, Recommendations C and D, which are
related to this audit, have not been closed.

Recommendation C has not been addressed. OIT indicated it will address
Recommendations C when AMB completes its wall-to-wall inventory of
information technology equipment, which includes laptops. OIT informed us that
Recommendation D has not been completely addressed. AMB has not yet
revised its procedures to establish clear accountability for laptops and it has not
established procedures to document the issuance of equipment to a specific SEC
employees or the receipt of equipment from SEC employees. AMB informed


SEC Controls Over GFE and CAP                                         March 28, 2012
Report No. 503
                                     Page 22
                                                                     Appendix II


Castro & Co they are currently in the process of updating their procedures to
address these requirements.




SEC Controls Over GFE and CAP                                       March 28, 2012
Report No. 503
                                    Page 23
                                                                       Appendix III


                                    Criteria

FAR Part 45, Government Property. Prescribes policies and procedures for
providing government property to contractors, contractors’ management and use
of government property, and reporting, redistributing, and disposing of contractor
inventory. FAR 45.107, Contract clauses, requires that FAR 52.245-1 be
inserted in its entirety in contracts where the government provides contractors
with GFE or directs them to acquire property to which the government has title for
use under the contract.

SECR 9-2, Property Management Program, March 16, 2009. Prescribes
policies and procedures governing the development, administration, application,
and oversight of the SEC personal property management program and applies to
personal property purchased or leased by the SEC.

SECR 9-3, Report of Survey Program, March 18, 1996. Prescribes policies,
procedures, and standards that govern the SEC's Report of Survey Program. It
provides criteria and procedures for initiating, preparing, and approving reports of
survey for SEC property and establishes criteria for determining an individual's
financial liability for loss of or damage to SEC-owned or -controlled property.

SECR 10-15 (Rev. 1), Acquisitions Contract Administration Positions
(August 12, 2009). Establishes uniform policies and procedures for the
appointment, termination, and responsibilities of Contracting Officer
Representatives and other contract administration positions at the SEC.

Government Accountability Office, Executive Guide: Best Practices in
Achieving Consistent, Accurate Physical Counts of Inventory and Related
Property, GAO-02-447G, March 2002. Describes fundamental practices and
procedures used in the private sector to achieve consistent and accurate
physical counts; summarizes fundamental principles successfully implemented
by companies recognized for outstanding inventory management; and explains
and describes leading practices from which the federal government might draw
lessons and ideas.




SEC Controls Over GFE and CAP                                         March 28, 2012
Report No. 503
                                     Page 24
                                                                       Appendix III


Office of Management and Budget, Memorandum for Chief Acquisition
Officers Senior Procurement Executives: Revisions to the Federal
Acquisition Certification for Contracting Officer Representatives (FAC-
COR), September 6, 2011. Prescribes revisions to the federal acquisition
certification for Contracting Officer Representatives, including requirements for
certification, recertification, and a new title for the position formerly known as
contracting officer technical representatives.

Committee of Sponsoring Organizations of the Treadway Commission,
Internal Control—Integrated Framework, 1992. Provides principles-based
guidance for designing and implementing effective internal controls,




SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page 25
                                                                      Appendix IV


                    List of Recommendations

Recommendation 1:

The Office of Administrative Services (OAS), in conjunction with the Office of
Information Technology (OIT), should revise SECR 9-3, Report of Survey
Program and SECR 9-2, Property Management Program, and clearly define
property that is designated as Government Furnished Property (GFP). OAS and
OIT should further identify in SECR 9-3 and 9-2 the particular circumstances that
are needed to meet the GFP requirements in accordance with Part 45 of the
Federal Acquisition Regulation.

Recommendation 2:

The Office of Information Technology (OIT) should revise its policy to specify how
often the office will conduct wall-to-wall inventories of the Securities and
Exchange Commission’s information technology equipment and how frequently
the Configuration Management Database (CMDB) should be updated. In
performing the inventories, OIT should ensure that:

      •   All relevant fields related to asset management in the CMDB are
          accurate and properly completed, including verifying that
          individuals using the property items are properly identified within
          the database;
      •   Equipment in regional offices is included in the wall-to-wall
          inventory; and
      •   Fields in the CMDB that capture contract numbers and contract
          expiration dates using the Active Directory.

Recommendation 3:

The Office of Information Technology (OIT) should coordinate with the
Contracting Officer Representative or other Property Accountability Officer, as
designated in the contract, to ensure that government issued property items are
properly returned to the OIT and the items are promptly removed from the
Configuration Management Database when the contractor is no longer using it or
when the contract is no longer active.




SEC Controls Over GFE and CAP                                         March 28, 2012
Report No. 503
                                     Page 26
                                                                     Appendix IV


Recommendation 4:

The Office of Information Technology (OIT) should develop and implement
procedures for monitoring information technology equipment at the regional
offices that is communicated to appropriate personnel. These procedures should
include the regional office’s roles in monitoring information technology equipment
issued to contractors, including their responsibilities when a contractor employee
exits a contract or when the equipment is moved to a new location.

Recommendation 5:

The Office of Information Technology (OIT) should revise its policies and
procedures to establish clear accountability within the Asset Management Branch
that is associated with properly tracking and monitoring information technology
equipment, including documenting the issuance and receipt of information
technology equipment to specific Commission contractors.

Recommendation 6:

When the Office of Information Technology completes the 2012, wall-to-wall
inventory of information technology equipment, it should use this information to
establish a baseline of the equipment in the Configuration Management
Database.

Recommendation 7:

The Office of Administrative Services, in conjunction with the Office of
Information Technology, should develop periodic training for Contracting Officers,
Contract Specialists, and Contracting Officer Representatives that clearly defines
and addresses their responsibilities related to government furnished property
consistent with Part 45 of the Federal Acquisition Regulation, Government
Property and SECR 9-2, Property Management Program.




SEC Controls Over GFE and CAP                                        March 28, 2012
Report No. 503
                                     Page 27
                                                                       Appendix IV


Recommendation 8:

The Office of Administrative Services should ensure when the Securities and
Exchange Commission issues Government Furnished Property to contractors,
the Contracting Officer (and where appropriate the Contract Specialist), includes
language in the contract that specifies:

       •   The name of the equipment,
       •   What equipment will be retained, disposed of, or returned to the
           government,
       •   When the equipment will be disposed of or returned to the
           government, and
       •   Who can accept the returned equipment.

Recommendation 9:

The Office of Information Technology should issue Government Furnished
Property to contractors only after it obtains proof that the vendor’s contract has
language authorizing the contractor to receive the equipment.




SEC Controls Over GFE and CAP                                          March 28, 2012
Report No. 503
                                      Page 28
                                                                             Appendix V


                      Management Comments




                                   MEMORANDUM


TO:          Jacqueline Wilson, Assistant Inspector General for Audits, Office of
             Inspector General                                      0

FROM:        Jayne L. Seidman, Acting Director

SUBJECT:     SEC's Controls Over Govemment Fumlshed Equipment and Contractor
             Acquimd Property, Report No. 503

DATE:        March 23,2012

This memorandum is in response to the Office of Inspector General's (DIG) Draft
Report No. 503, titled SEC's Controls Over Govemment Fumished Equipment and
Contractor Acquired Property. Thank you for the opportunity to review and respond to
this report.                                                                  .

OIG Recommendation 1. The Offlce of Administrative Services (OAS), in conjunction
with the Offlce of Informat/on Technology (011), should revise SECR 9-3, Report of
Survey Program and SEeR 9-2, Property Management Program, and clearly define
property that is designated as Govemment Fumished Property (GFP). OAS and OIT
should further identify in SECR 9-3 and 9-2 the particular circumstances that are
needed to meet the GFP requirements in accordance with Part 45 of the Federal
Acquisition Regulation (FAR).                                                     .

The Office of Administrative Services (DAS) concurs. DAS will coordinate with OIT in
revising SECR 9-3, Report of Survey Program and SECR 9-2, Property Management
Program to incorporate the definition of Govemment Fumished Property and clarify that
the requirements of FAR Part 45 do not apply to

   (1) Govemment property provided under any statutory leasing authority, except as to
       non-govemment use of property under FAR 45.301 (f);
   (2) Property to which the govemment has acquired a lien or title solely because of
       partial, advance, progress, or perfOrT!lance based payments;
   (3) Disposal of real property;
   (4) Software and intellectual property; or
   (5) Govemment property that Is incidental to the place of performance, when the
       contract requires contractor personnel to be located on a govemment site or
       Installation, and when the property used by the contractor within the location
       remains accountable to the government. Hems considered to be incidental to the
       place of performance include, for example, office space, desks, chairs,
       telephones, computers, and fax machines.




SEC Controls Over GFE and CAP                                               March 28, 2012
Report No. 503
                                        Page 29
                                                                                Appendix V




OIG Recommendation 7. The Office of Administrative Services, in conjunction with the
Office of Infonnation Technology, should develop periodic training for Contracting
Officers, Contract Specialists, and Contracting Officer Representatives that clearly
defines and addresses their responsibilities related to government furnished property
consistent with Parl 45 of the Federal Acquisition Regulation, Governrnent Property and
SECR 9-2, Properly Manegement Program.

The Office of Administrative Services (OAS) concurs. OAS will work with the Office of
Infonnation Technology to develop periodic training consistent with FAR Part 45, for
Contracting Officers, Contract Specialists, and Contracting Officer Representatives who
have Government Furnished Property responsibilities. The training will clearly define
and address assigned responsibilities relating to government furnished property.

OIG Recommendation 8. The Office of Administrative Services should ensure when
the Commission issues Government Furnished Property to contractors, the Contracting
Officer (and where appropriate the Contract Specialist), includes language in the
contract that specifies:

      •   The name of the equipment,
      •   What equipment will be retained, disposed of, orreturned to the government,
      •   When the equipment will be disposed of or returned to the government, and
      •   Who can accept the returned equipment. .

The Office of Administrative Services (OAS) concurs. OAS will include information
including the specified Items in any contracts which contain Government Furnished
Property.




SEC Controls Over GFE and CAP                                                  March 28, 2012
Report No. 503
                                          Page 30
                                                                                Appendix V




                                     MEMORANDUM


TO :          Jacqueline Wilson, Assistant Inspector General for Audits, Office of
               Inspector General
                                                                                     ",,0-k--C
                                                                                     \jJ' 0 \)
FROM:         Thomas A. Bayer, Director, Office of Information TechnoloA. {OIT)J\

RE:           SEC's Controls Over Government Furnished       EqUipmentJn\~actor
              Acquired Property, Report No. 503

DATE:          March 26, 2012

This memorandum is in response to the Office of Inspector General's (OIG) Draft
Report No. 503, SEC's Controls Over Government Furnished Equipment and
Contractor Acquired Property. Thank you for the opportunity to review and respond to
this report.

orG Recommendation 1.        The Office of Administrative Services (OAS), in conjunction
with the Office of Information Technology (OIT), should revise SECR 9-3, Report of
Survey Program and SECR 9-2, Property ManagementProgram, and clearly define
property that is designated as Government Furnished Property (GFP). OAS and OIT
should further identify in SECR 9-3 and 9-2 the particular circumstances that are
needed to meet the GFP requirements in accordance with Part 45 of the Federal
Acquisition Regulation (FAR) .                                                    .

orT concurs with this recommendation.

orG Recommendation 2. The Office of Information Technology (OIT) should revise its
policy to specify how often the office will conduct wall-to-wall inventories of the
Securities and Exchange Commission's information technology equipment and how
frequently the Configuration Management Database (CMDB) should be updated. In
performing the ' inventories, OIT should ensure that:

   •    All relevant fields related·to asset management in the CMDB are accurate and
        properly completed, including verifying that individuals using the property items
        are properly identified within the database;
   •    Equipment in Regional Offices is included in the wall-ta-wall inventory; and
   •    Fields in the CMDB that capture contract numbers and contract expiration dates
        using the Active Directory.

OtT concurs with this recommendation.



                                              1




SEC Controls Over GFE and CAP                                                  March 28, 2012
Report No. 503
                                           Page 31
                                                                            Appendix V




OIG Recommendation 3. The Office of Information Technology (OIT) should
coordinate with the Contracting Officer Representative or other Property Accountability
Officer, as designated in the contract, to ensure that government issued property items
are properly returned to the OIT and the items are promptly removed from the
Configuration Management Database when the contractor is no longer using it or when
the contract is no longer active.

OIT concurs with this re=mmendation.

OIG Recommendation 4. The Office of Information Technology (OIT) should develop
and implement procedures for monitoring information technology equipment at the
Regional Offices that is communicated to appropriate personnel. These procedures
should include the Regional Office's roles in monitoring information technology
equipment issued to contractors, including their responsibilities when a contractor
employee exits a contract or when the equipment is moved to a new location.

OIT concurs with this recommendation.

OIG Recommendation 5. The Office of Information Technology (OIT) should revise its
poliCies and procedures to establish clear accountability within the Asset Management
Branch that is associated with properly tracking and monitoring information technology
equipment, including documenting the issuance and receipt of information technology
equipment to specific Securities and Exchange Commission contractors.

OIT concurs with this recommendation.

OIG Recommendation 6. When thfi Office of Information Technology completes the
2012, wall-to-wall inventory of information technology equipment, it should use this
information to establish a baseline of the equipment in the Configuration Management
Database.

·OIT concurs. with this recommendation.

OIG Recommendation 7. The Office of Administrative Services, in conjunction with the
Office of Information Technology, should develop periodic training for Contracting
Officers, Contract Specialists, and Contracting Officer Representatives that clearly
defines and addresses their responsibilities related to government furnished property
consistent with Part 45 of the Federal Acquisition Regulation, Government Property and
SECR 9-2, Property Management Program.

OIT concurs with this recommendation.




                                             2




SEC Controls Over GFE and CAP                                              March 28, 2012
Report No. 503
                                          Page 32
                                                                            Appendix V




OIG Recommendation 9. The Office of Information Technology should issue
Government Furnished Property to contractors only after it obtains proof that the
vendor's contract has language authorizing the contractor to receive the equipment.

OIT concurs with this recommendation.




                                            3




SEC Controls Over GFE and CAP                                              March 28, 2012
Report No. 503
                                        Page 33
                                                                   Appendix VI


     OIG Response to Management’s Comments

OIG is pleased OAS and OIT concurred with all of the report’s recommendations.
We are also encouraged that OAS and OIT indicated they will take prompt action
to address the areas of concern we identified in this report. We believe OAS and
OIT’s full implementation of OIG’s recommendations will result in significant
improvements to SEC’s management controls over government furnished
equipment and contractor acquired property.




SEC Controls Over GFE and CAP                                      March 28, 2012
Report No. 503
                                   Page 34
                         Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC, contact the
      Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
